    DEPARTMENT OF HOMELAND SECURITY
        Office of Inspector General


        National Emergency Management 

       Information System (NEMIS) Access 

                 Control System 


                 Public Summary





              Office of Audits
OIG-04-02                   December 2003
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                  Office of Audits
 National Emergency Management Information System (NEMIS) Access Control System
                                    OIG-04-02

The NEMIS is the system the Federal Emergency Management Agency (FEMA), and now
Emergency Preparedness and Response (EP&R), uses to manage its disaster response and
recovery programs and to authorize millions of dollars in payments related to disaster response
and recovery activities. The NEMIS Access Control System (NACS) facilitates the management
of NEMIS user access rights and is the primary security control for NEMIS data and functions.
FEMA’s Information Technology Service Directorate (ITSD) manages NEMIS and NACS.

The purpose of this audit, performed under contract by KPMG LLP, was to determine whether
FEMA had developed and maintained NACS in a controlled manner and in accordance with
relevant federal guidance. To accomplish this, the audit included reviews of certain NEMIS
controls that directly affected NACS. Although NACS provides a reasonable mechanism for
controlling access to NEMIS, both NACS and NEMIS controls could be improved. Specifically,
NACS control weaknesses existed in the areas of separation of duties, access controls, audit
trails, and training. NEMIS control weaknesses that directly affected NACS related to the need
for a designated and accountable system owner, security planning, system certification and
accreditation, contingency planning, and change management controls. Collectively, these
weaknesses reduced FEMA’s ability to ensure the confidentiality, availability, and integrity of
NEMIS data.

The OIG made 16 recommendations regarding NACS-specific control issues and NEMIS control
issues that directly affect NACS. ITSD agreed with the report findings and recommendations,
and agreed to prepare, coordinate, and implement a corrective action plan.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
